July 2008
Report No. AUD-08-011


DSC’s Examination Assessment of
Interest Rate Risk




            AUDIT REPORT
                                           Report No. AUD-08-011                                                                                     July 2008

                                           DSC’s Examination Assessment of
                                           Interest Rate Risk
   Federal Deposit Insurance Corporation
                                           Audit Results
Why We Did The Audit
                                           For the 38 sampled risk management examinations we reviewed, FDIC examiners generally
The audit objectives were to               complied with applicable policies and procedures for assessing and addressing an institution’s
(1) determine whether the FDIC’s           internal control, review, and audit coverage of the interest rate risk management process.
examinations comply with applicable        Generally, as depicted in the figure below, we found:
policies and procedures for assessing      • Pre-Examination Planning memoranda listed the red flags identified by the FDIC’s Interest
and addressing an institution’s                 Rate Risk Standard Analysis software application; and
internal control, review, and audit        • Reports of Examination and supporting working papers showed that examiners either
coverage of the interest rate risk              obtained for consideration a copy of the institution’s independent review report or
management process; and                         identified a contravention of the IRR SOP.
(2) evaluate the corrective actions
pursued when significant weaknesses        Regarding the pursuit of corrective actions, we found that informal and formal corrective
are reported by examiners. Interest        actions generally addressed significant weaknesses reported by examiners in the area of interest
rate risk, the exposure of an              rate risk. We also noted that a provision related to interest rate risk was sometimes not included
institution’s earnings and capital to      in corrective actions, even though both the composite and Sensitivity to Market Risk component
adverse interest rate changes, is          ratings of the institutions by examiners were less than satisfactory. However, DSC showed that
fundamental to the business of             provisions addressing other ratings components reasonably addressed the identified concerns.
banking. The audit focused on
FDIC-supervised institutions with          We also identified situations where the examiner’s assessment of an institution’s independent
indicators of elevated interest rate       review and reporting to the institution’s board of directors could be improved. Specifically, we
risk.                                      found that examinations often did not:
                                           • provide conclusions on the adequacy of the independent review functions, or
Background                                 • assess the adequacy of the institution’s reporting on the independent reviews to its board.

Changes in interest rates can              Additionally, training records we reviewed for 42 interest rate risk and capital markets Subject
adversely affect a financial               Matter Experts and Regional Specialists showed that some had obtained little or no training in
institution’s earnings and market          recent years in their areas of expertise. Targeted training could enhance the contribution of
capital. The FDIC’s Division of            these experts and specialists to the examination process.
Supervision and Consumer Protection
(DSC) conducts periodic risk               Ensuring that appropriate institution and examination controls and resources are in place will
management examinations to                 help the FDIC to assure that an institution’s interest rate risk management processes are
ascertain, among other things, an          appropriate and functioning adequately.
institution’s Sensitivity to Market
Risk, including interest rate risk.                   Audit Results of Sample Analysis
                                                                                                              Pre-examination Planning Memoranda
DSC has issued guidance for                                                                                   Listed Red Flags

conducting these examinations.                                                                                Independent Reviews Obtained or
                                                                                                 97%          Contravention Cited
Additionally, the Joint Agency Policy                                                     84%                 Interest Rate Risk Provisions
Statement on Interest Rate Risk (IRR                                                       88%
                                                                                                              Included in Corrective Actions

SOP), issued by the FDIC and the                                              61%                             Adequacy of Independent Review
                                                                                                              Functions Determined
other federal banking agencies,                               32%
provides guidance to institutions on                                                71%
                                                                                                              Independent Review Reporting to
                                                                                                              Board Assessed
prudent interest rate risk management
principles and assists bankers and                                                                            Subject Matter Experts and Regional
                                                                                                              Specialists Obtained Recent Interest
                                                 0%       20%         40%         60%      80%         100%
examiners in evaluating the adequacy                                                                          Rate Risk Training
                                                   Source: OIG sample analysis.
of an institution’s management of
interest rate risk. The IRR SOP states
that an institution’s interest rate risk
management process should be
                                           Recommendations and Management Response
subject to periodic independent
review to ensure the integrity,            We recommended that DSC emphasize to examiners the need to fully assess and conclude on
                                           the adequacy of an institution’s independent review and on the adequacy of reporting on the
accuracy, and reasonableness of the
                                           independent review to the bank’s board, as warranted by risk; advise examiners of the
institution’s overall risk management
process. Overall, the purpose of the       importance of collectively considering all relevant examination guidance; and establish policies
                                           and guidelines for the training of interest rate risk and capital markets Subject Matter Experts
independent review is to ensure that
                                           and Regional Specialists. Management concurred with our recommendations and is taking
the interest rate risk measurement and
                                           responsive action.
management processes are sound.
To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                                  Page


BACKGROUND                                                                  1
  Institution Guidance in the Statement of Policy on Interest Rate Risk     2
  FDIC Examination Guidance                                                 2

RESULTS OF AUDIT                                                            3

EXAMINER ASSESSMENT OF AN INSTITUTION’S INDEPENDENT                         4
REVIEW AND REPORTING TO THE BOARD OF DIRECTORS
  Joint Agency Statement of Policy on Interest Rate Risk                    4
  Examination Guidance Related to the Independent Review                    5
  Examiner Determination of the Adequacy of Independent Reviews             6
  Examiner Assessment of an Institution’s Reporting to Its Board of         7
   Directors on the Independent Reviews
  Examiner Implementation of Guidance on Independent Reviews                7
  Reliance on Independent Reviews and Management Systems                    8
  Recommendations on Examiner Assessment of an Institution’s                9
   Independent Review and Reporting to the Board of Directors

INTEREST RATE RISK TRAINING FOR SUBJECT MATTER                              9
EXPERTS AND REGIONAL SPECIALISTS
  Training Guidance                                                         9
  Subject Matter Expert and Regional Specialist Training                   10
  Establishment of Policy for Continuing Education                         11
  Maintenance of Human Capital Resources                                   11
  Recommendation on Interest Rate Risk Training for Subject Matter         12
   Experts and Regional Specialists

CORPORATION COMMENTS AND OIG EVALUATION                                    12

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                    13
  2. CORPORATION COMMENTS                                                  18
  3. MANAGEMENT RESPONSE TO RECOMMENDATIONS                                20
  4. ACRONYMS USED IN THE REPORT                                           21

TABLE
  Scope and Annual Reporting Expectations for an Institution’s              5
  Independent Review

FIGURE
  Examination Conclusions Not Provided on the Scope of the Independent      7
  Reviews
    Federal Deposit Insurance Corporation                                                             Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


    DATE:                                     July 7, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  DSC’s Examination Assessment of Interest Rate Risk
                                              (Report No. AUD-08-011)


    This report presents the results of our audit of the Division of Supervision and Consumer
    Protection’s (DSC) examination assessment of interest rate risk at FDIC-supervised
    institutions. The audit objectives were to (1) determine whether the FDIC’s examinations
    comply with applicable policies and procedures for assessing and addressing an
    institution’s internal control, review, and audit coverage of the interest rate risk
    management process; and (2) evaluate the corrective actions pursued when significant
    weaknesses are reported by examiners. 1 We focused the audit on those FDIC-supervised
    institutions with indicators of elevated interest rate risk. We conducted this performance
    audit in accordance with generally accepted government auditing standards. Appendix 1
    of this report discusses our audit objectives, scope, and methodology in detail.


BACKGROUND

    Interest rate risk is fundamental to the business of banking. Changes in interest rates can
    expose an institution to adverse shifts in net interest income, increase the cost of funds,
    and impair the underlying value of its assets, thereby adversely affecting an institution’s
    earnings and market capital. The FDIC is responsible for ensuring that the financial
    institutions it supervises operate in a safe and sound manner. To accomplish this, the
    FDIC conducts risk management examinations to ascertain, among other things, an
    institution’s Sensitivity to Market Risk, including interest rate risk. This assessment is
    summarized in an assigned risk rating for Sensitivity to Market Risk, which is the “S”




    1
     The FDIC generally initiates informal or formal corrective action against institutions with a composite
    safety and soundness rating (see footnote 2) of “3,” “4,” or “5,” unless specific circumstances warrant
    otherwise.
       part of the CAMELS rating system. 2 Failure to appropriately assess an institution’s
       interest rate risk can impact the overall effectiveness of the risk management examination
       and expose the institution to the risk of loss.


Institution Guidance in the Statement of Policy on Interest Rate Risk

       The FDIC provides supervisory guidance to institutions and examiners, in part, through
       FDIC Statements of Policy. In 1996, the federal banking agencies 3 issued The Joint
       Agency Policy Statement on Interest Rate Risk (IRR SOP) to provide guidance to
       institutions on interest rate risk management and to assist bankers and examiners in
       evaluating the adequacy of an institution’s management of interest rate risk. 4 Although a
       Statement of Policy (SOP) does not constitute a legal requirement, an institution’s failure
       to adhere to an SOP requirement may result in a citation for contravention in the
       examiner’s Report of Examination (ROE).

       The IRR SOP states that effective control of the interest rate risk management process
       includes an independent review and, where appropriate, internal and external audit.
       According to the IRR SOP, a bank should conduct periodic reviews of its risk
       management process to ensure its integrity, accuracy, and reasonableness. According to
       DSC’s Risk Management Manual of Examination Policies (DSC Examination Manual),
       the independent review serves as a means to independently assess the adequacy of an
       institution’s measurement system. The level and depth of independent review performed
       by an institution should be commensurate with the institution’s activities.

       The SOP also indicates that the findings of the review should be reported annually to the
       institution’s board of directors.


FDIC Examination Guidance

       The DSC Examination Manual and the FDIC’s Rate Sensitivity Examination
       Documentation Module (Rate Sensitivity ED Module) 5 address interest rate risk
       management and an institution’s independent review.

       2
         Under the Uniform Financial Institutions Rating System (UFIRS), during a regulatory examination,
       federal regulators assign each financial institution a composite rating based on an evaluation of six essential
       components of an institution's financial condition and operations: Capital Adequacy, Asset Quality,
       Management, Earnings, Liquidity, and Sensitivity to Market Risk (CAMELS). A composite rating of 1
       through 5 is given, with 1 having the least regulatory concern and 5 having the greatest concern.
       3
         The FDIC, Board of Governors of the Federal Reserve System, and Office of the Comptroller of the
       Currency.
       4
         Refer to the Compliance with Laws and Regulations section in Appendix 1 for further information about
       the IRR SOP.
       5
         According to the DSC Examination Manual, an ED Module is an examination tool that focuses on risk
       management practices and guides examiners to establish the appropriate examination scope. Each module
       contains a series of decision factors and examination procedures for examiners to consider when evaluating
       an institution’s risk. The examiner’s use of the ED Modules and the need to provide a documented
       response to individual decision factors and examination procedures is discretionary.


                                                             2
RESULTS OF AUDIT

    For the 38 risk management examinations we reviewed, FDIC examiners generally
    complied with applicable policies and procedures for assessing and addressing an
    institution’s internal control, independent review, and audit coverage of the interest rate
    risk management process. Specifically, we found that:

        •    Pre-Examination Planning (PEP) memoranda for 37 (97 percent) of the 38
             examinations we reviewed listed the “red flags” 6 identified by the FDIC’s Interest
             Rate Risk Standard Analysis (IRRSA) software application, 7 and

        •    ROEs and supporting working papers for 32 (84 percent) of the 38 examinations
             reviewed showed that examiners had either obtained for consideration a copy of
             the institution’s independent review report or identified a contravention of the
             IRR SOP.

    Additionally, informal and formal corrective actions generally addressed significant
    weaknesses reported by examiners in the area of interest rate risk. We sampled 50
    institutions that had a Sensitivity to Market Risk component rating and composite rating
    of “3,” “4,” or “5,” which are considered less than satisfactory. For 44 (88 percent) of the
    50 institutions, where both the composite and Sensitivity to Market Risk component
    ratings were less than satisfactory, corrective actions contained either a specific or
    general provision that addressed weaknesses and/or deficiencies related to Sensitivity to
    Market Risk. For the remaining six institutions (12 percent), a provision related to
    Sensitivity to Market Risk was not included in an informal or formal corrective action;
    however, DSC provided us reasonable explanations for these instances. In each case,
    DSC showed that there were provisions related to other CAMELS components that could
    improve deficiencies within the area of Sensitivity to Market Risk. In addition, we noted
    that the examiners had discussed their interest rate risk concerns and recommendations
    with the institutions’ management and documented those matters in the ROEs.

    We also found that the examiner assessment of an institution’s independent review and
    reporting of review results to its board of directors could be improved. Specifically,
    some examiners for our sampled examinations did not conclude on the adequacy of an
    institution’s independent review functions or on the adequacy of the institution’s
    reporting of the review results to its board of directors. Adequate independent reviews
    help ensure the integrity, accuracy, and reasonableness of an institution’s interest rate risk
    measurement system; an institution’s safety and soundness; and the FDIC’s ability to rely



    6
      A red flag is not an indication of a supervisory concern but rather is intended only to focus examiner
    attention and to identify potential issues that can be addressed either in the working papers or, if material,
    in the examination comments.
    7
      IRRSA is not an interest rate risk model and does not attempt to estimate a bank’s specific interest rate
    risk option. Rather, IRRSA is a tool that assists examiner identification of areas that may warrant
    additional review in the assessment of an institution’s interest rate risk. IRRSA’s red flag system identifies
    institutions that exceed certain thresholds compared to established risk benchmarks.


                                                          3
      on the results of an institution’s interest rate risk measurement system (Examiner
      Assessment of an Institution’s Independent Review and Reporting to the Board of
      Directors).

      Further, the FDIC could enhance its training for Subject Matter Experts and Regional
      Specialists. Some Subject Matter Experts and Regional Specialists had obtained little or
      no recent training in their designated areas of expertise—interest rate risk and capital
      markets. These individuals are an important resource for examiners seeking advice and
      guidance on an institution’s Sensitivity to Market Risk during the examination process
      (Interest Rate Risk Training for Subject Matter Experts and Regional Specialists).


EXAMINER ASSESSMENT OF AN INSTITUTION’S INDEPENDENT REVIEW AND
REPORTING TO THE BOARD OF DIRECTORS

      Examiner assessment of an institution’s independent review and reporting of the review
      results to the board of directors could be improved. Specifically, we found that FDIC
      examiners did not:

          •   provide conclusions on the adequacy of the independent review functions for
              15 (39 percent) of the 38 examinations reviewed.

          •   assess the adequacy of the institution’s reporting on the independent reviews to its
              board of directors for 26 (68 percent) of the 38 examinations reviewed.

      An inadequate independent review could reduce both (1) an institution’s assurance that
      its interest rate risk management processes and system are appropriate and functioning
      adequately and (2) DSC’s ability to rely on the results of that system for examination
      purposes.


Joint Agency Statement of Policy on Interest Rate Risk

      Although not a legal requirement, the IRR SOP states that an institution should conduct
      periodic independent reviews of its risk management process to ensure its integrity,
      accuracy, and reasonableness. The policy statement identifies the scope and annual
      reporting expectations for an independent review as shown in the following table:




                                                   4
      Scope and Annual Reporting Expectations for an Institution’s Independent Review
            Minimum Areas for Review and                        Review Results to be Reported to the
          Validation During the Independent                       Institution’s Board of Directors
                           Review
      The adequacy of, and personnel’s compliance            The findings of the review.
      with, the institution’s internal control system.

      The appropriateness of the institution’s risk          A brief summary of the institution’s interest
      measurement system given the nature, scope,            rate risk measurement techniques and
      and complexity of its activities.                      management practices.

      The accuracy and completeness of the data              The identification of major critical
      inputs into the institution’s risk measurement         assumptions used in the risk measurement
      system.                                                process.

      The reasonableness and validity of scenarios           A discussion of the process used to derive
      used in the risk measurement system.                   major critical assumptions.

      The validity of the risk measurement                   An assessment of the impact of major critical
      calculations.                                          assumptions on the institution’s measured
                                                             exposure.

      Source: Office of Inspector General (OIG) analysis of the IRR SOP.



Examination Guidance Related to the Independent Review

      The DSC Examination Manual emphasizes that, at a minimum, each institution should
      have procedures in place to independently review its input process, assumptions, and
      system output reports. To illustrate, among other things, the institution’s:

          •   system-input process review should evaluate the adequacy and appropriateness of
              the level of knowledge and skill of the individuals responsible for the
              measurement system;

          •   assumption review should address the process of developing assumptions for all
              material asset, liability, and off-balance sheet exposures; and

          •   system output and reporting assessment should include coverage of the timeliness
              and frequency of reporting to management and the board.

      In addition, the DSC Examination Manual states that individuals responsible for
      performing the independent review should not be involved in the interest rate risk
      measurement process. Institutions may use internal staff, an outsourcing arrangement, or
      a combination of the two, to independently appraise the measurement system.




                                                         5
      The FDIC’s Rate Sensitivity ED Module incorporates an examiner assessment of an
      institution’s independent review. In particular, one of the module’s core analysis
      decision factors asks, “Are the audit or independent review functions adequate?” In
      addition, the corresponding core analysis procedures include the following examiner
      determinations:

         •   Determine that the scope of the audit or independent review is sufficient to
             identify policy, reporting, internal control, and compliance deficiencies.

         •   Determine that the scope includes a review and validation of risk measurement
             calculations and tests for reasonableness and accuracy of assumptions and data
             inputs.

         •   Determine that results are reported to the board on a timely basis.

         •   If recent reviews disclosed any deficiencies, determine if management responses
             are reasonable.

      Although the IRR SOP and the DSC Examination Manual describe specific independent
      review procedures, the Rate Sensitivity ED Module does not describe all of the minimum
      scoping procedures for the independent review or all of elements to be included in the
      institution’s reporting to the board of directors as prescribed by the IRR SOP and DSC
      Examination Manual. Further, the Rate Sensitivity ED Module does not refer the
      examiner to the IRR SOP. According to DSC management, examiners are expected to
      consider all sources of guidance and would not rely solely on the Rate Sensitivity ED
      Module when reviewing interest rate risk.


Examiner Determination of the Adequacy of Independent Reviews

      To assess examiner coverage of the IRR SOP and compliance with applicable
      examination procedures for interest rate risk, we sampled 38 examinations for FDIC-
      supervised institutions with indicators of an elevated interest rate risk profile. These
      sampled institutions had from one to seven “red flags” identified by the FDIC’s IRRSA
      application.

      For 23 of the 38 examinations for which examiners provided a conclusion on the
      adequacy of the institution’s independent review, we saw evidence that the examiners
      had concluded on the adequacy of the review either in the ROEs or in examination
      working papers. We accepted examiners’ conclusions and observations on the adequacy
      of the institution’s independent review in various forms, such as a check mark on a
      procedural step, a declaration of adequacy or inadequacy, and/or a citation of a
      contravention of the IRR SOP.

      The results of our analysis for 15 (39 percent) of the 38 examinations with no conclusions
      on the adequacy of the institutions’ independent reviews are presented on the next page.


                                                  6
      Examination Conclusions Not Provided on the Scope of the Independent Reviews

                      20%                                            Five examinations did not note the
                                                                     existence of an independent review
                                                                     and did not cite a contravention.
                                                           33%
                             3
                                              5                      One examination noted the absence of
                                                                     an independent review but did not
                                                                     cite a contravention.

                                                                     Six examinations noted the existence
                                 6             1                     of an independent review but did not
                                                                     conclude on the independent review's
                                                                     adequacy.
                                                       7%            Three examinations noted the
                      40%                                            findings of an independent review but
                                                                     did not conclude on the independent
                                                                     review's adequacy.

      Source: OIG analysis of ROEs and examination working papers.



Examiner Assessment of an Institution’s Reporting to Its Board of Directors on the
Independent Reviews

      For 26 (68 percent) of the 38 examinations reviewed, we found that FDIC examiners did
      not conclude on the adequacy of the institution’s reporting on the independent review to
      its board. In accordance with the IRR SOP, the institution’s report to the board on the
      review results should address all five elements described earlier in this report. For 12
      examinations, we accepted examiners’ conclusions and observations on the adequacy of
      the institution’s reporting on the independent review in various forms—either in the
      ROEs or the examination working papers, such as a check mark on a procedural step, a
      declaration of adequacy or inadequacy, an affirmative statement that the independent
      review was reported to the institution’s board, and/or a citation of a contravention of the
      IRR SOP.


Examiner Implementation of Guidance on Independent Reviews

      We interviewed 13 DSC field examiners, from 3 field offices, who explained their
      understanding of DSC’s examination policies and procedures and described their
      assessment process for independent reviews and the institution’s reporting on the reviews
      to its board of directors. In particular, field examiners stated that an institution’s
      compliance with the IRR SOP should be evaluated at every examination. The examiners
      also stated that in assessing an institution’s compliance with the IRR SOP, they would
      always check for an independent review. Although the examiners stated that they
      believed that an institution’s independent review should be reviewed at all examinations,


                                                       7
      the depth of review deemed necessary varied. Some examiners stated that it was
      necessary to validate an institution’s compliance with all of the provisions of the IRR
      SOP, while other examiners stated it was necessary to validate only that an independent
      review had been conducted and that the institution had reported the independent review
      to the institution’s board.

      Although the IRR SOP is not a legal requirement, the IRR SOP provides that examiners
      should consider certain risk factors in conducting their review, as follows:

             When evaluating the applicability of specific guidelines provided in this
             Statement … bank management and examiners should consider factors such as
             the size of the bank, the nature and complexity of its activities, and the adequacy
             of its capital and earnings in relation to the bank’s overall risk profile.

      The extent of an independent review should be commensurate with the bank’s activities;
      however, as risk increases, we believe that an examination should more thoroughly assess
      an institution’s implementation of the IRR SOP. An adequate independent review should
      provide the institution assurance that its interest rate risk management processes and
      systems are commensurate with the institution’s activities and permit DSC reliance on the
      review. Therefore, it is important for examiners to conclude on the adequacy of the
      independent reviews and to assess whether the institution’s reporting to the board on the
      independent review addressed all IRR SOP elements.


Reliance on Independent Reviews and Management Systems

      Independent reviews serve as a significant element of an institution’s interest rate risk
      management process because such reviews are an objective source of verification and
      assessment. The absence of or a weak independent review could compromise the
      integrity, accuracy, and reasonableness of an institution’s interest rate risk measurement
      system and even the safety and soundness of the institution. Adequate independent
      review and board oversight increases the FDIC’s ability to rely on the results of an
      institution’s interest rate risk measurement system.

      FDIC emphasis on the need for examiners to fully assess and conclude on the adequacy
      of the scope of an institution’s independent review and on the extent of an institution’s
      reporting to its board on review results could achieve improvement in controls and
      interest rate risk measurement systems at FDIC-supervised institutions. This is
      particularly the case in institutions with indicators of elevated interest rate risk, such as
      those assessed in this audit. In turn, the independent reviews and board reporting could
      provide the FDIC and examiners greater assurance and reliance on the results of
      institutions’ interest rate risk management and systems during on-site examinations.




                                                     8
Recommendations on Examiner Assessment of an Institution’s Independent Review
and Reporting to the Board of Directors

      We recommend that the Director, DSC:

      (1) Emphasize to examiners the need to fully assess and conclude on the adequacy of an
          institution’s independent review and on the adequacy of reporting on the independent
          review to the institution’s board as warranted by risk.

      (2) Advise examiners of the importance of collectively considering the IRR SOP, the
          DSC Examination Manual, and the Rate Sensitivity ED Module in scoping
          examination coverage of IRR independent reviews and the institution’s reporting on
          the independent reviews to its board.


INTEREST RATE RISK TRAINING FOR SUBJECT MATTER EXPERTS AND
REGIONAL SPECIALISTS

      Our review of available training records 8 and follow-up discussions with DSC indicated
      that some Subject Matter Experts and Regional Specialists had obtained little or no
      training in recent years in their designated areas of expertise—interest rate risk and
      capital markets. These individuals are an important resource for examiners seeking
      advice and guidance on an institution’s sensitivity to market risk during the examination
      process.


Training Guidance

      DSC has not established policies or guidelines on the training of interest rate risk and
      capital markets Subject Matter Experts and Regional Specialists. However, the FDIC’s
      Corporate Performance Objectives for 2007 and 2008 identified that the FDIC has a
      “Resource Management” objective to ensure that the FDIC has the necessary skills in its
      workforce, on an ongoing basis, to effectively address current and emerging safety and
      soundness risk. These corporate performance objectives highlight senior management’s
      goals in improving the knowledge and depth of employee skills and ensuring the transfer
      and succession of knowledge.

      Also of note, the Government Accountability Office (GAO) issued Standards for Internal
      Control in the Federal Government, dated November 1999, which contains internal
      control guidance for the federal government. In part, one of the internal control standards
      states the following:

      8
        The FDIC’s Corporate University provided us 5-year training histories for our sample of DSC Subject
      Matter Experts and Regional Specialists. However, not all training is captured in the Corporate
      University’s training server, especially training that is conducted at regional training conferences or at the
      regional/field offices.



                                                             9
               All personnel need to possess and maintain a level of competence that allows
               them to accomplish their assigned duties … . Management needs to identify
               appropriate knowledge and skills needed for various jobs and provide needed
               training … .

      In implementing this standard, the GAO recommends, in part, that agencies consider
      whether an appropriate training program exists to meet the needs of all employees,
      emphasize the need for continuing training, and have a control mechanism in place to
      help ensure that all employees receive appropriate training.


Subject Matter Expert and Regional Specialist Training

      Based on our review of available training records, we found that 12 (29 percent) of 42
      interest rate risk and capital markets Subject Matter Experts (who are also examiners) and
      Regional Specialists from two regions appeared to have had little or no capital markets
      training over the last 2 years, 9 and in some cases, for up to 5 years. For these examiners,
      we noted the following:

          •    four individuals had no direct capital markets training 10 and no indirectly-related
               training 11 within the last 5 years.

          •    four individuals had no direct capital markets training within the last 5 years and
               no indirectly-related training within the last 2 years.

          •    four individuals had no direct capital markets training and no indirectly-related
               training within the last 2 years.

      We discussed the lack of recent training with one of the Subject Matter Experts from our
      sample. She reviewed and verified the accuracy of her training data available from the
      Corporate University. Additionally, the Subject Matter Expert’s Field Supervisor
      indicated that a similar situation exists with another designated Subject Matter Expert
      from another field office. Although the Field Supervisor recognized the importance of
      the Subject Matter Expert positions, he also expressed concern with the need to balance
      9
        In the absence of specific training guidance, we performed our audit assessment based on an assumption
      that continuing education should be obtained at least once every 2 years. Good business practices suggest
      that in order to help employees maintain and improve their competence for their assigned positions, a
      minimum level of continuing education should be sought and maintained.
      10
         We considered training as “direct training” that was provided by the Federal Financial Institutions
      Examination Council and that was described as the Capital Markets Conference or the Capital Markets
      Specialists Conference.
      11
         We considered “indirect training” as training that included any of the following: derivatives, asset-
      backed securities, interest rate risk, market risk measurement, asset securitization, modeling, supervisory
      updates, and asset management. Based on discussions with DSC senior management, we also considered
      training obtained by examiners who attended the Asset Liability Management Models Lab that was
      conducted by the Chicago Federal Reserve and the Interagency Symposium on Financial Risk Modeling
      that was sponsored by the FDIC’s Corporate University.


                                                           10
      the level of training provided to Subject Matter Experts with the level of time these
      examiners need to perform examinations.

      We also asked DSC to provide information on any additional related training not
      included in the Corporate University’s training data for the 12 Subject Matter Experts and
      Regional Specialists. DSC indicated that two individuals were no longer designated as
      interest rate risk or capital markets Subject Matter Experts or Regional Specialists. One
      of the individuals had been designated as a capital markets expert until recently but was
      not conducting work in that area. In addition, some of the remaining individuals had
      attended capital markets-related sessions at regional training and other conferences but no
      extended training in their designated areas of expertise.


Establishment of Policy for Continuing Education

      The lack of recent training may be attributable to the lack of expectations and guidance
      related to the training for Subject Matter Experts and Regional Specialists, who are
      involved in providing technical support for examination teams. Additionally, DSC
      indicated that examination scheduling often is a deciding factor as to whether a Subject
      Matter Expert will be available for specialized training opportunities. We found that
      DSC has no formal policies for the training of Subject Matter Experts or Regional
      Specialists. DSC senior managers stated that the experience level and qualification of the
      individuals who hold those positions varies widely. The managers expressed that
      establishing more formalized standards and policies in this area would be beneficial and
      generally supported the idea of providing more consistent training through a shared effort
      with Corporate University.


Maintenance of Human Capital Resources

      Field office Subject Matter Experts are an important resource in an examination of an
      institution’s sensitivity to market risk because these individuals are the first point of
      contact for other examiners who are seeking guidance during the examination process.
      Regional Specialists are also an important resource as a secondary point of contact. In
      this regard, establishing policies and guidelines for the training of interest rate risk and
      capital markets Subject Matter Experts and Regional Specialists will help to ensure that
      examiners have access to effective resources during the examination process. When
      designated Subject Matter Experts and Regional Specialists do not attend pertinent
      training to further their understanding and knowledge, they can lose proficiency in their
      designated area of expertise and diminish the FDIC’s ability to successfully manage its
      resources and to ensure the proper succession of knowledge and skills.




                                                    11
Recommendation on Interest Rate Risk Training for Subject Matter Experts and Regional
Specialists

      We recommend that the Director, DSC:

      (3) Establish policies and guidelines for the training of interest rate risk and capital
          markets Subject Matter Experts and Regional Specialists.


CORPORATION COMMENTS AND OIG EVALUATION

      On July 3, 2008, the Director, DSC, provided a written response to the draft of this
      report. Management’s response is presented in its entirety in Appendix 2. Management
      concurred with our findings and recommendations. A summary of management’s
      response to the recommendations is in Appendix 3.

      In response to recommendation 1, DSC stated that it will re-emphasize that examination
      staff should assess and conclude on the adequacy of institutions’ independent reviews,
      and the reporting of such reviews, as directed by examination guidance. For
      recommendation 2, DSC stated that it will re-emphasize that examiners should
      collectively consider outstanding guidance, policies, and examiner resources in risk-
      scoping examination coverage of an institution’s management of its rate sensitivity.
      Regarding recommendation 3, DSC will recommend the establishment of training
      policies and guidelines for capital markets Subject Matter Experts and Regional
      Specialists to the appropriate FDIC training oversight groups and will assist with the
      development and implementation of the applicable policies and training curriculum.

      DSC’s planned actions are responsive to our recommendations. The recommendations
      are resolved but will remain open until we determine that the agreed-to corrective actions
      have been completed and are responsive.




                                                    12
                                                                                                  APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      The objectives of this audit were to (1) determine whether the FDIC’s examinations
      comply with applicable policies and procedures for assessing and addressing an
      institution’s internal control, review, and audit coverage of the interest rate risk
      management process; and (2) evaluate the corrective actions pursued when significant
      weaknesses are reported by examiners.

      We conducted this performance audit in accordance with generally accepted government
      auditing standards. Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provided a reasonable basis for our findings and conclusions. We performed the audit
      from August 2007 through April 2008.


Scope and Methodology

      To achieve our audit objectives, we:

           •   Reviewed supervisory examination guidance for coverage of interest rate risk and
               the issuance of formal and informal corrective actions. In particular, we
               performed a review of the:
               - FDIC Statement of Policy entitled, Joint Agency Policy Statement on Interest
                   Rate Risk;
               - Risk Management Manual of Examination Policies;
               - Formal and Informal Action Procedures Manual;
               - Case Manager Procedures Manual;
               - ED Modules entitled, Risk Scoping and Rate Sensitivity;
               - Regional Directors Memoranda; and
               - Financial Institution Letters.

           •   Reviewed safety and soundness examination reports and working paper
               documentation on a non-statistical 12 sample of 38 institutions related to the
               examiner assessment of an institution’s internal control, independent review, and
               audit coverage of the interest rate risk management process; and use of IRRSA
               reports during the pre-examination planning process. We selected the sample
               based on institutions that had elevated indicators of interest rate risk.

           •   Reviewed safety and soundness examination reports and corresponding corrective
               actions on a non-statistical sample of 50 institutions for the corrective action
               provisions pursued when significant weaknesses related to interest rate risk were
               reported by examiners. The sample was selected based on institutions that had a
      12
         The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.


                                                           13
                                                                                  APPENDIX 1


          •   Sensitivity to Market Risk component rating and a composite rating of “3,” “4,”
              or “5.”

          •   Described and compared the examiners’ assessments of an institution’s internal
              control, review, and audit coverage of the interest rate risk management process
              against the examination procedures provided in the FDIC’s policies and
              procedures noted above.

          •   Interviewed DSC officials in Washington, D.C., and regional and field offices;
              and interviewed Division of Insurance and Research officials in Washington, D.C.

          •   Performed our audit work at the FDIC’s Headquarters offices in Washington,
              D.C., and the Philadelphia and San Juan Field Offices.


Internal Control

      We gained an understanding of the relevant control activities (related to the examination
      coverage of the Sensitivity to Market Risk component) by reviewing applicable policies
      and procedures as detailed under the Scope and Methodology section of this report. In
      particular, we identified that DSC had established the following process controls related
      to the examination review of the Sensitivity to Market Risk component:

          •   Employee training
              - Assistant Examiner Schools
              - On-the-job training
              - Updates and refresher training

          •   Examination policies and procedures
              - Pre-examination planning
              - Examiner review and assessment
              - Examiner-in-Charge/Operational Manager Review
              - Field Supervisor/Case Manager Review
              - Institution management response and appeal process

          •   DSC’s field office and regional office internal reviews

      In assessing these controls, we:

          •   Reviewed DSC’s training policies and directives.

          •   Reviewed employee training programs that cover interest rate risk for DSC
              personnel in various stages of career development, such as assistant
              examiners/financial institution specialists, commissioned examiners, Subject
              Matter Experts, and Regional Specialists.



                                                  14
                                                                                  APPENDIX 1


          •   Reviewed the recent level of completed training (based on available training
              records) on interest rate risk by selecting a non-statistical sample of Subject
              Matter Experts and Regional Specialists. The sample was selected based on all
              Subject Matter Experts and Regional Specialists identified within the New York
              and San Francisco regions as of the time of our audit.

          •   Reviewed DSC’s examination policies and procedures, as noted in the Scope and
              Methodology section of this report.

          •   Reviewed DSC’s internal assessment of the safety and soundness examination
              process – concerning the examination of Sensitivity to Market Risk – by
              selecting a non-statistical sample of DSC regional and field office reviews. We
              selected the sample of DSC regional office reviews from all reviews conducted
              from 2004 to 2006. We selected the sample of DSC field office reviews from the
              reviews completed in the New York and San Francisco regions from 2006 to
              2007. For the samples selected, we reviewed the Internal Control and Review
              Section’s Internal Review Reports, regional and field office review audit
              programs, and the working papers completed on the field office reviews.

      Overall, controls for examiner assessment of interest rate risk appeared to be adequate
      except for those areas discussed in this report.


Reliance on Computer-processed Information

      Our audit objective did not require that we separately assess the reliability of computer-
      processed information. However, we conducted tests to determine the reliability of
      computer-processed information obtained from the IRRSA application. Based on our
      review of information in IRRSA, we noted that the application failed to correctly identify
      an institution’s “red flags.” We notified DSC of our concerns, and the application’s
      software program was corrected during the audit. The processing errors were caused by a
      recent IRRSA application software update. This condition was not a long-standing
      problem and did not affect our sample of examinations. For the other aspects of our
      audit, we did not rely on computer-processed information to support our significant
      findings, conclusions, or recommendations. Our assessment centered on reviews of PEP
      Memoranda, ROEs, examination working papers, on-site reviews, and interviews.




                                                  15
                                                                                   APPENDIX 1


Performance Measurement

      The Government Performance and Results Act of 1993 directs federal agencies to
      develop a strategic plan and annual performance goals and objectives to help improve
      federal program effectiveness and service delivery. In fulfilling the FDIC’s supervisory
      responsibilities, the FDIC pursues two strategic goals: (1) FDIC-supervised institutions
      are safe and sound, and (2) consumers’ rights are protected and FDIC-supervised
      institutions invest in their communities. Related to the safety and soundness strategic
      goal, there is one strategic objective: FDIC-supervised institutions appropriately manage
      risk. This strategic objective has various corresponding annual performance goals.
      Specifically, there are two annual performance goals related to our audit, in that the FDIC
      will:

         •    Conduct on-site risk management examinations to assess the overall financial
              condition, management practices and policies, and compliance with applicable
              laws and regulations of FDIC-supervised depository institutions.

         •    Take prompt and effective supervisory action to address problems identified
              during the FDIC examination of FDIC-supervised institutions that receive a
              composite rating of “4” or “5” (problem institution). Monitor FDIC-supervised
              and insured depository institutions’ compliance with formal and informal
              enforcement actions.

      Additionally, the FDIC’s Corporate Performance Objectives for 2007 and 2008 identified
      that the FDIC has a “Resource Management” objective to ensure that the FDIC has the
      necessary skills in its workforce, on an ongoing basis, to effectively address current and
      emerging safety and soundness risk.


Compliance with Laws and Regulations

      In conducting the audit, we considered the following laws and regulations:

          •   Federal Deposit Insurance Corporation Improvement Act (FDICIA). This
              Act (Public Law 102-242) added section 39 to the Federal Deposit Insurance Act
              (FDI Act) (12 United States Code § 1811 et seq.), which requires bank regulators
              to prescribe standards relating to interest rate exposure. FDICIA also contains a
              provision (section 305(b)) which, as amended in 1994 by Public Law 103-325,
              required bank regulators to revise, within 18 months, their risk-based capital
              standards to ensure that those standards take adequate account of interest rate and
              other risks.

          •   FDIC Rules and Regulations, Part 325 – Capital Maintenance and
              Appendix A to Part 325—Statement of Policy on Risk-Based Capital. In order
              to comply with section 305(b) of FDICIA, Appendix A to Part 325 was revised in
              1995, and the Joint Agency Policy Statement on Interest Rate Risk was issued in


                                                  16
                                                                             APPENDIX 1


        1996 to address how interest rate risk will be considered with respect to the
        adequacy of an institution’s capital. Interest rate risk is also addressed in
        Appendix C to Part 325—Risk-Based Capital for State Non-Member Banks:
        Market Risk, published subsequent to the joint agency policy statement.

    •   FDIC Rules and Regulations, Part 364 – Standards for Safety and Soundness.
        This regulation and Appendix A to Part 364—Interagency Guidelines
        Establishing Standards for Safety and Soundness implement section 39 of the
        FDI Act. Appendix A to Part 364 states that an institution should:
        - Manage interest rate risk in a manner that is appropriate to the size of the
          institution and the complexity of its assets and liabilities.
        - Provide for periodic reporting to management and the board of directors
          regarding interest rate risk with adequate information for management and the
          board to assess the level of risk.

   •    FDIC Statements of Policy. Although FDIC SOPs are detailed within the
        FDIC’s Rules and Regulations, the SOPs are not technically considered laws or
        regulations. Regardless, the joint agency policy statement, Joint Agency Policy
        Statement on Interest Rate Risk, was published on June 26, 1996 to provide
        guidance to banks regarding prudent interest rate risk management principles and
        to assist bankers and examiners in evaluating the adequacy of a bank’s
        management of interest rate risk.

In addressing our audit objectives, we did not specifically test for compliance with
section 39 nor with FDIC Rules and Regulations parts 325 and 364 or their appendices,
and no specific violations were reported within the ROEs sampled, and none came to our
attention. However, we did specifically test for compliance with certain sections of the
Joint Agency Policy Statement on Interest Rate Risk. The results of our review are
discussed throughout this report.

We assessed the risk of fraud and abuse related to the audit objective in the course of
evaluating audit evidence.




                                             17
     APPENDIX 2




19
                                                      APPENDIX 3
                 MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and
the status of the recommendations as of the date of report issuance.

    Rec. No.      Corrective Action: Taken         Expected      Monetary      Resolved:a     Open or
                         or Planned               Completion     Benefits      Yes or No      Closedb
                                                     Date
        1        DSC will re-emphasize that       08/15/2008         $0        Yes            Open
                 examination staff should
                 assess and conclude on the
                 adequacy of institutions’
                 independent reviews, and the
                 reporting of such reviews, as
                 directed by examination
                 guidance.

        2        DSC will re-emphasize that       08/15/2008         $0        Yes            Open
                 examiners should
                 collectively consider
                 outstanding guidance,
                 policies, and examiner
                 resources in risk-scoping
                 examination coverage of an
                 institution’s management of
                 its rate sensitivity.

        3        DSC will recommend the           08/31/2008         $0        Yes            Open
                 establishment of training
                 policies and guidelines for
                 capital markets Subject
                 Matter Experts and Regional
                 Specialists to the appropriate
                 FDIC training oversight
                 groups and will assist with
                 the development and
                 implementation of the
                 applicable policies and
                 training curriculum.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.




                                                   20
                                                          APPENDIX 4
          ACRONYMS USED IN THE REPORT



CAMELS    Capital Adequacy, Asset Quality, Management, Earnings,
          Liquidity, and Sensitivity to Market Risk
DSC       Division of Supervision and Consumer Protection
ED        Examination Documentation
FDI Act   Federal Deposit Insurance Act
FDICIA    Federal Deposit Insurance Corporation Improvement Act
FFIEC     Federal Financial Institutions Examination Council
GAO       Government Accountability Office
IRR       Interest Rate Risk
IRR SOP   Joint Agency Policy Statement on Interest Rate Risk
IRRSA     Interest Rate Risk Standard Analysis
OIG       Office of Inspector General
PEP       Pre-Examination Planning
ROE       Report of Examination
SOP       Statement of Policy
UFIRS     Uniform Financial Institutions Rating System




                             21
